<html>
<title> - NORTH KOREA: BACK ON THE STATE SPONSOR OF TERRORISM LIST?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                NORTH KOREA: BACK ON THE STATE SPONSOR 
                           OF TERRORISM LIST?

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2015

                               __________

                           Serial No. 114-118

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________

                       U.S. GOVERNMENT PUBLISHING OFFICE
97-268PDF                     WASHINGTON : 2015                       
                            
_______________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6106110e210214121509040d114f020e0c4f">[email&#160;protected]</a>  
                               
                                 
                                                             
                                                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Sung Kim, Special Representative for North Korea 
  Policy, U.S. Department of the State...........................     5
Ms. Hilary Batjer Johnson, Deputy Coordinator for Homeland 
  Security, Screening, and Designations, Bureau of 
  Counterterrorism, U.S. Department of State.....................    12

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Sung Kim: Prepared statement.......................     8
Ms. Hilary Batjer Johnson: Prepared statement....................    14

                                APPENDIX

Hearing notice...................................................    30
Hearing minutes..................................................    31
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and chairman, Subcommittee on Terrorism, 
  Nonproliferation, and Trade: Internet link for material 
  submitted for the record.......................................    32
Written responses from Ms. Hilary Batjer Johnson to questions 
  submitted for the record by the Honorable Brad Sherman, a 
  Representative in Congress from the State of California........    33

 
       NORTH KOREA: BACK ON THE STATE SPONSOR OF TERRORISM LIST?

                              ----------                              


                       THURSDAY, OCTOBER 22, 2015

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2255, Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order.
    Without objection, all members may have 5 days to submit 
statements, questions, and extraneous materials for the record, 
subject to the limitations in the rules.
    In 1987, North Korea bombed Korean Air Flight 858, killing 
115 people. For its role in the bombing and its history of 
other terrorist acts, North Korea was designated as a state 
sponsor of terrorism from 1988 to 2008.
    In 2008, North Korea was taken off the list of state 
sponsors of terrorism, not because most of the reasons cited in 
the State Department had changed. Instead, the decision, to me, 
was purely diplomatic and based on the nuclear agreement 
reached as a result of the Six-Party Talks. North Korea was to 
freeze and disable its nuclear program. In exchange, the United 
States would remove North Korea from the state sponsor of 
terrorism list.
    The agreement fell apart because North Korea did not hold 
up its end of this bargain. Since 2008, North Korea has made 
significant advances in its nuclear program. North Korea 
conducted two nuclear weapons tests since 2008: One in 2009 and 
one in 2013. Earlier this month, there were rumors of yet 
another test in the works that may come.
    The other reasons the State Department cited for keeping 
North Korea on the state sponsors of terrorism list for 20 
years are still relevant today. North Korea had a long history 
of abducting Japanese citizens in the 1970s and 1980s. Some of 
these kidnapped Japanese are still unaccounted for. North Korea 
has maintained its support for terrorist organizations. North 
Korea harbored Japanese Red Army terrorists who participated in 
the hijacking of a jet in 1970. These terrorists are still 
living peaceably in North Korea today.
    In 2009 alone, three North Korean arms shipments bound for 
terrorist groups like Hezbollah and Hamas were seized by the 
UAE, Israel, and Thailand. In 2014, Western security sources 
reported that Hamas brokered an agreement to purchase 
communications equipment and rockets from North Korea. Hamas 
fighters reportedly used North Korean anti-tank guided missiles 
against Israel as recently as 2014.
    A U.S. district court ruling in 2014 determined that North 
Korea materially supported Hezbollah's terrorist attacks in 
Israel in 2006. And, without objection, the Chair will submit 
to the record the United States District Court for the District 
of Columbia, the plaintiffs in cause of action 10-483, where 
the Federal judge, and I quote, on page 4:

        ``The court finds by clear and convincing evidence that 
        Hezbollah carried out the rocket attacks that caused 
        plaintiffs' injuries and that North Korea provided 
        material support. North Korea provided Hezbollah with a 
        variety of material support, including a professional 
        military and intelligence training and assistance in 
        building a massive network of underground military 
        installations, tunnels, bunkers, depots, and storage 
        facilities in southern Lebanon.''

    And it continues. And that will be a part of the record.
    North Korea's ties to these terrorists do not end with the 
weapons sales. North Korean experts advised both Hezbollah and 
Hamas in the construction of their terrorist tunnel networks.
    Beyond its ongoing ties to terrorist groups, North Korea 
remains a major proliferator of weapons of mass destruction. 
North Korea has cooperated with Iran on ballistic missiles 
since in the 1980s. North Korea is now believed to be working 
on an intercontinental ballistic system. If fully developed, 
this missile could drop a nuclear bomb as far away as the 
United States.
    There is growing evidence that Iran and North Korea are 
cooperating on developing nuclear capabilities. North Korea 
helped set up the nuclear reactor in Syria, which could have 
been used to produce plutonium for a nuclear weapon. Since 
2009, several North Korean shipments of equipment used in 
chemical weapons programs have been directed to Syria. U.S. 
Government officials have also said that North Korea provided 
nuclear material to Libya in the 2000s.
    North Korea engages in the harassment, abduction, and 
murder of refugees, dissidents, and foreigners attempting to 
help North Koreans defect. The most prominent of these cases is 
the abduction and murder of Reverend Kim Dong-sik, a U.S. 
permanent resident from northeastern China.
    North Korean cyber attacks have reportedly targeted the Web 
sites of the Department of Homeland Security, the Department of 
Defense, Federal Aviation Administration, and others. Last 
year, North Korea carried out a cyber attack against Sony 
pictures that included direct threats against its employees and 
warning to ``remember the 11 of September 2001.''
    Meanwhile, the administration has been exercising a policy 
of ``strategic patience'' against North Korea. As a judge, it 
certainly wouldn't have been good policy for me to have 
strategic patience for the criminals committing crimes in 
Texas.
    North Korea has not stopped sponsoring terrorism, even if 
our Government has said it has. The Kim regime not only fails 
to take substantial steps to combat terrorism, it has provided 
weapons and other support to designated foreign terrorist 
organizations.
    So North Korea is still manufacturing weapons of mass 
destruction, and its nuclear program has grown more advanced 
than in 2008. So it appears that North Korea's actions have 
gotten bolder and more flagrant. So the purpose of this hearing 
is to consider putting North Korea back on the state sponsor of 
terrorism list.
    The Chair now yields to the ranking member from 
Massachusetts, Mr. Keating, for his opening statement.
    Mr. Keating. Well, thank you, Chairman Poe, for conducting 
this hearing.
    And I thank our witnesses for being here today.
    North Korea is a rogue state which engages in all sorts of 
nefarious activities. This is not in dispute. The North Korean 
regime is involved in international organized crime, 
perpetrates terrible human rights abuses on its own citizens, 
and continually engages in internationally provocative actions.
    Its nuclear capabilities remain an ever-present threat for 
its neighbors and for the United States. North Korea has not 
held back from conducting nuclear tests, engaging in cyber 
attacks, and ratcheting up military tensions with South Korea. 
North Korea's continuation of its nuclear and ballistic missile 
programs is a direct violation of numerous U.N. Security 
Council resolutions and previously held commitments. Even more 
disturbing, because of the regime's desperation, its need for 
hard currency make proliferation and extortion an ongoing 
threat.
    With these violations in mind, I, along with Chairman Poe, 
co-sponsored legislation introduced by Chairman Royce in this 
Congress to improve the enforcement of sanctions against North 
Korea. It is important that we, along with our allies, uphold 
our commitments to North Korea's denuclearization. It is also 
important that North Korea face consequences when intentionally 
engaged in prohibited activities.
    With respect to North Korea's ties to terrorism, I remain 
concerned about reports of potential recent North Korean 
support of Hamas and Hezbollah and reports of attempted and 
successful kidnappings and assassinations of North Korean 
dissidents living abroad.
    I look forward to hearing from our witnesses regarding 
these reports and, more generally, how the State Department 
currently assesses whether North Korea is a state sponsor of 
terrorism and what factors it considers when making this 
assessment.
    With that, I yield back, Mr. Chairman.
    Mr. Poe. I thank the gentlemen from Massachusetts.
    The Chair will now recognize the gentleman from California, 
Mr. Sherman, for an opening statement.
    Mr. Sherman. Thank you.
    This hearing raises a number of questions. Clearly, for 
reasons both prior speakers have indicated, North Korea 
deserves to be on the list of state sponsors of terrorism. So 
we will want to know why we took them off, why we haven't put 
them back on, and why Congress just sits by and lets the 
executive branch make all the foreign policy decisions, where, 
in this case, the decision to take them off and leave them off 
is so questionable.
    But then we look at House leadership, which seems to be 
putting us in a position where the foreign ops bill is going to 
be presented to Congress in a way in which no member of this 
committee can offer an amendment. No Member of the House will 
be able to offer an amendment. And I look forward to working 
with people here to make sure that just because you stick it in 
an omnibus bill doesn't mean you can have a whole year or, in 
this case, several years of foreign ops appropriations with no 
Member of the House and certainly no member of the Foreign 
Affairs Committee being able to offer an amendment.
    A decade ago, North Korea wanted a nonaggression pact with 
the United States. We turned them down because we don't do 
nonaggression pacts, which is perhaps the silliest reason not 
to do it. Just, ``Well, we don't do that here.'' Now they want 
a peace treaty. I don't think we should give it to them unless 
we get something in return, but to dismiss it out of hand seems 
absurd.
    We have taken them off the terrorist list. I don't think we 
got much for it.
    I want to focus our attention on their--we had hearings in 
this subcommittee with my Asia Subcommittee and others on the 
North Korea-Iran alliance. I got to spend an hour with the 
President in the Oval Office. It is amazing how nice the 
administration is before you announce your position on the Iran 
deal. And I spent most of that time focusing on the possibility 
of a transfer of fissile material from North Korea to Iran.
    Well, where are we at present? We have one country that 
desperately wants nuclear weapons and is about to get its hands 
on, let us say, $100-billion-plus of money. We have another 
country that has nuclear weapons and fissile material and 
desperately needs money. What could go wrong? And, certainly, 
just North Korea's nuclear involvement with Syria and Iran is 
reason enough to put them on all of the lists.
    Israel, roughly 5 years ago, 6 years ago, took out the Al 
Kibar nuclear facility. The sole purpose of that facility was 
to help Syrian and/or Iran develop nuclear weapons. At that 
time, North Korea was unwilling to sell, or apparently 
unwilling to sell, fissile material because I think they need 
about a dozen nuclear weapons to defend themselves from us, or 
at least the speculation is that that is what they think they 
need. Well, now they will be creating enough fissile material 
for four additional nuclear weapons every year.
    Now, I am not saying their thirteenth weapon goes on eBay, 
but they have already sold for hundreds of millions of dollars 
nuclear technology to Syria and/or Syria and Iran. One would 
suspect more Iran than Syria. And now Iran has a lot more 
money. And North Korea has more fissile material than it needs 
as its minimum defense requirement.
    So I think we should focus not only on what terrorist and 
proliferation activities North Korea has engaged in but what 
they are likely to do in the future.
    I thank you for the time, and I yield back.
    Mr. Poe. Without objection, all the witnesses' prepared 
statements will be made part of the record. I ask that each 
witness keep their presentation to no more than 5 minutes. I 
will introduce each witness and then give time for their 
statements, and then questions will follow.
    Ambassador Kim is the Special Representative for North 
Korean Policy and the Deputy Assistant Secretary for Korea and 
Japan. Previously Ambassador Kim served as Special Envoy for 
the Six-Party Talks and is a former prosecutor.
    Mrs. Hilary Batjer Johnson is the Deputy Coordinator for 
Homeland Security, Screening, and Designations in the Bureau of 
Counterterrorism. Ms. Johnson oversees the designations of 
foreign terrorist organizations and individuals under 
authorities of the Secretary of State.
    Ambassador Kim, we will start with you, and you have 5 
minutes.

STATEMENT OF THE HONORABLE SUNG KIM, SPECIAL REPRESENTATIVE FOR 
        NORTH KOREA POLICY, U.S. DEPARTMENT OF THE STATE

    Mr. Kim. Thank you very much, Mr. Chairman.
    Chairman Poe, Ranking Member Keating, and members of the 
subcommittee, thank you for inviting me today, along with 
Deputy Coordinator Johnson, to testify about the global 
security threat posed by North Korea.
    North Korea's provocative and repressive policies and 
actions constitute one of the most difficult and complicated 
challenges the United States faces. Mr. Chairman, we share your 
concerns about the grave threat posed by North Korea.
    Multiple United Nations Security Council resolutions 
require North Korea to abandon its nuclear and ballistic 
missile programs and prohibit countries from engaging with the 
DPRK to buy or sell weapons and related items and technologies. 
North Korea itself committed to abandoning all nuclear weapons 
and existing nuclear programs in the Six-Party process.
    Yet North Korea continues to violate these commitments and 
obligations through its pursuit of nuclear weapons and 
ballistic missiles and its proliferation of weapons and 
technologies abroad. This conduct poses a growing threat to the 
United States, our friends in the region, and the global 
nonproliferation regime.
    We are committed to using the full range of tools--
deterrence, diplomacy, and pressure--to counter the threat and 
to make clear: North Korea will not achieve security or 
prosperity while the regime pursues nuclear weapons, abuses its 
own people, and rejects its obligations and commitments.
    We have refused to respond to North Korean provocations 
with concessions. Instead, since 2009, we have tightened 
sanctions and consistently underscored to the DPRK that the 
path to a brighter future begins with authentic and credible 
negotiations that produce concrete denuclearization steps.
    Part of our effort to change North Korea's strategic 
calculus is maintaining the strongest possible deterrent 
capabilities. The DPRK should have no doubt that the United 
States stands ready to defend our interests and our allies. In 
this, we could have no better partners than in our allies in 
Seoul and Tokyo. We have made it a priority to modernize these 
alliances for the 21st century, and this important goal was 
reaffirmed during the recent visits here by President Park and 
Prime Minister Abe.
    By maintaining credible deterrence and by applying 
sustained sanctions pressure on the regime, we increase the 
cost to the DPRK of its destructive policy choices. Vigorous 
sanctions enforcement is the key to cracking down on North 
Korea's proliferation activities which finance and facilitate 
North Korea's dangerous programs. Strong sanctions 
implementation also helps prevent North Korea's weapons from 
spreading, potentially destabilizing other global hotspots or 
reaching groups that would seek to harm the United States and 
our allies.
    We of course monitor very closely all available 
intelligence on North Korea's global arms trade, and we take 
action, together with our partners, to mitigate those 
transactions and to impose consequences on those responsible.
    In January, President Obama issued a new Executive order 
giving us an important, powerful, and broad new sanctions tool. 
We immediately began using this Executive order to apply 
additional pressure on wrongdoers in the DPRK, imposing 
sanctions against the DPRK's primary intelligence agency known 
to be responsible for its cyber operations as well as its main 
arms trade agency and several of its overseas arms dealers, and 
we will continue to use this new tool, along with our other 
sanctions authorities.
    Our sanctions are always more effective when supported by 
our partners, and so we have focused on strengthening 
multilateral sanctions against North Korea. The sanctions that 
we have successfully pushed for in the United Nations Security 
Council give countries the authorities they need to crack down 
on North Korea's proliferation networks.
    When North Korea's major shipping firm was involved in an 
illegal weapons shipment, we led efforts at the United Nations 
to sanction the firm. Since then, the company's ships have been 
denied port entry, scrapped, impounded, or confined to their 
homeports in North Korea, and the shipping firm has lost its 
contracts with many foreign-owned ships.
    We have engaged countries across Southeast Asia, Africa, 
and the Middle East that have been targeted by North Korea for 
proliferation-related activities, reminding them of their 
obligation to implement United Nations sanctions and 
strengthening their capacity to do so. As a result of our 
outreach, key countries have reemphasized their commitment to 
the United Nations Security Council sanctions and have taken 
some positive steps on enforcement.
    We also continually review all available intelligence to 
determine whether North Korea is subject to additional 
measures. Naturally, this includes reviewing available 
information to determine whether the facts indicate the DPRK 
should be designated as a state sponsor of terrorism.
    Equally important is North Korea's political isolation, 
driven by the overwhelming international consensus that North 
Korea cannot fully participate in the international community 
until it abides by its obligations and commitments. We have 
built that consensus through our active and principled 
diplomacy, and that diplomacy, of course, begins with our 
partners in the Six-Party process: South Korea, Japan, China, 
and Russia. Our coordination ensures that, wherever Pyongyang 
turns, it hears a strong, unwavering message that it must live 
to up to its obligations.
    Mr. Chairman, holding North Korea accountable and combating 
its illicit activities requires a sustained and international 
effort. We and our partners will continue to deploy the full 
range of tools--deterrence, pressure, and diplomacy--to counter 
the threat and to lead Pyongyang to different choices.
    Thank you again for the opportunity to appear today, and I 
look forward to your questions.
    [The prepared statement of Mr. Kim follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
          
                              ----------                              

    Mr. Poe. The Chair recognizes Ms. Johnson for your opening 
statement. You have 5 minutes.

STATEMENT OF MS. HILARY BATJER JOHNSON, DEPUTY COORDINATOR FOR 
   HOMELAND SECURITY, SCREENING, AND DESIGNATIONS, BUREAU OF 
           COUNTERTERRORISM, U.S. DEPARTMENT OF STATE

    Ms. Johnson. Thank you.
    Chairman Poe, Ranking Member Keating, and distinguished 
members of the subcommittee, thank you for inviting me to join 
my colleague, Special Representative for North Korea Policy 
Sung Kim, to testify today about the process for designating a 
country as a state sponsor of terrorism and North Korea's 
designation in 1988.
    Special Representative Kim already expressed our shared 
concern for the global security threat posed by North Korea and 
summarized clearly our policy and tools of deterrence, 
diplomacy, and pressure. So, with the chairman's permission, I 
would like to briefly outline the criteria and the process for 
designating a country as a state sponsor of terrorism ahead of 
our broader discussions.
    First, in order to designate a country as a state sponsor 
of terrorism, the Secretary of State must determine that the 
government of such country has repeatedly provided support for 
acts of international terrorism. The standard for applying and 
rescinding this designation are set out in the three separate 
statutes: Section 620A of the Foreign Assistance Act; section 
40 of the Arms Export Control Act; and section 6(j) of the 
Export Administration Act. The standard for designation is the 
same in all three.
    In making such a determination, the Secretary's evaluation 
generally includes but is not limited to the following 
criteria. And, I if may, I will read those as well: Allowing 
the use of its territory as a safe haven from extradition or 
prosecution for terrorist activity; furnishing arms, 
explosives, or lethal substances to individuals, groups, or 
organizations with the likelihood that they will be used in 
terrorist activities; providing logistical support, such as 
transportation, to individuals, groups, or organizations 
involved with terrorist activities; providing safe houses or 
headquarters for any individuals, groups, or organizations 
involved with terrorist activities; planning, directing, 
providing training, or assisting in the execution of terrorist 
activities; providing direct or indirect financial backing for 
terrorist activities; and providing direct or indirect 
diplomatic facilities, such as support or documentation, 
intended to aid or abet terrorist activities.
    A state-sponsor-of-terrorism designation is made only after 
careful review of all available evidence in its entirety to 
determine if a country meets the statutory criteria for 
designation. Such a designation involves a number of laws, and 
the four main categories of sanctions of an SST would include: 
A ban on arms-related exports and sales; restrictions over 
exports of dual-use items; restrictions on foreign assistance; 
and imposition of miscellaneous trade and other restrictions, 
including potential liability in U.S. courts for acts that fall 
within the terrorism exception of the Foreign Sovereign 
Immunities Act.
    The Secretary of State designated North Korea as a state 
sponsor of terrorism on January 20, 1988, for repeatedly 
providing support of acts of international terrorism, 
particularly the bombing of Korean Airlines Flight 858 on 
November 29, 1987, that killed 115 people and the Rangoon 
bombing of 1983 that killed 17, including 4 South Korean 
cabinet ministers.
    After a thorough review conducted in accordance with the 
relevant statutory criteria for SST recision, on October 11, 
2008, North Korea's state-sponsor-of-terrorism designation was 
rescinded.
    In May 2015, the United States recertified North Korea as a 
country not fully cooperating with U.S. counterterrorism 
efforts, pursuant to Section 40A of the Arms Export and Control 
Act, as amended. In making this annual determination, the 
Department of State reviewed North Korea's overall level of 
cooperation with U.S. efforts to combat terrorism, taking into 
account U.S. counterterrorism objectives with North Korea and a 
realistic assessment of North Korea's capabilities.
    Of note, the standards are different for certification as a 
not-fully-cooperating country versus the designation of a state 
sponsor of terrorism. The determination of whether a country is 
not fully cooperating is made based on a review of the 
country's cooperation with U.S. counterterrorism efforts, 
whereas, again, a state-sponsor-of-terrorism determination is 
based on whether a country has repeatedly provided support for 
acts of international terrorism.
    In addition to annually reviewing North Korea's 
certification as a not-fully-cooperating country, the 
Department of State regularly reviews the available information 
and intelligence on North Korea to determine whether the facts 
indicate that it should be, once again, designated as a state 
sponsor of terrorism. These judgements are not based solely on 
the news of the day, and we look systematically at what has 
been done to make these determinations.
    In conclusion, I would like to thank you and the 
subcommittee for the opportunity to appear today along with my 
colleague, Special Representative Kim, to outline the state-
sponsor-of-terrorism process and its history with respect to 
North Korea, and I am happy to answer any questions.
    Thank you.
    [The prepared statement of Ms. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
        
                              ----------                              

    Mr. Poe. Thank you both.
    When North Korea was put on the state sponsor of terrorism 
list, and whatever the reasons were it was put on, which of 
those no longer apply today in 2015?
    Ms. Johnson. So, when we rescinded the SST designation, we 
again go back through the statutory criteria, which require us 
to go back 6 months that they are listed for the review and 
determine. And so, at this point, from 2008 on, we, again, 
review all credible information, all information and 
intelligence from all sources, and, again, we look to 
corroborate that, make sure----
    Mr. Poe. So which of those that were available to you that 
you said, ``These are the reasons we are putting them on the 
state sponsor of terrorism''--which of those no longer apply in 
2015?
    Ms. Johnson. Well, I would have to look at what exactly was 
included in the recision package. But, again, for recision, it 
is really only a looking back--for the statute requirements--is 
looking back at 6 months, did they commit any acts of 
international terrorism. And they also must produce assurances 
that say they will not commit or provide support for acts of 
international terrorism going forward. That is the requirement 
for the SST statute for recision.
    Mr. Poe. All right.
    Ambassador Kim, does North Korea have nuclear weapons?
    Mr. Kim. So I think in this setting it is difficult for me 
to answer clearly, but, obviously, we are very concerned about 
the advances they have made in their nuclear program.
    Mr. Poe. Are they developing ICBMs?
    Mr. Kim. Well, again, very concerned about the advances 
they have made in their delivery capabilities.
    Mr. Poe. And are they working with Iran in the development 
of ICBMs?
    Mr. Kim. So we have long been concerned about relations 
between Iran and North Korea, and this is a matter that we 
watch very closely. We have a number of sanctions, both 
multilateral and U.S. Sanctions, that prohibit any such 
dealings. And this is obviously something that we will pursue 
vigorously whenever we have credible information.
    Mr. Poe. Ambassador and Ms. Johnson, are you familiar with 
the District Court for the District of Columbia case that I 
cited earlier, Kaplan v. Hezbollah case? I am sure you have 
read it. Let me read you another portion that I have not read 
from the district judge, July 23, 2014:

        ``Moreover, North Korea worked in concert with Iran and 
        Syria to provide rocket and missile components for 
        Hezbollah . . .''

Hezbollah terrorist organization.

        ``North Korea sent these rocket and missile components 
        to Iran, where they assembled and shipped to Hezbollah 
        in Lebanon via Syria. These rocket and missile 
        components were intended by North Korea and Hezbollah 
        to be used and were, in fact, used by Hezbollah to 
        carry out rocket and missile attacks against Israeli 
        civilian targets.''

    Now, to me, that sounds like a terrorist act on the end. 
Would that information be used to consider or reconsider 
putting North Korea back on the state sponsor of terrorism 
list? Either one or both of you.
    Ms. Johnson. I will go ahead first.
    So I wouldn't want to comment on the alleged activities in 
the district court ruling. Again, I think we--and I believe----
    Mr. Poe. Well, assume they are true. Just assume that is 
true. Whether you agree or not, assume it is true. The judge 
says this, but--I don't want to violate any security things, 
but assume that is true. Would that be, as we called it in law 
school, a weight factor to consider putting them back on the 
list as a state sponsor of terrorism?
    Ms. Johnson. So, again, I would go back to the statutory 
criteria requires us to look at all available evidence. We 
would, again, look at unclassified information, press 
reporting, other information, including intelligence. And, 
again, we would be verifying----
    Mr. Poe. Okay. Excuse me, Ms. Johnson. You read the 
criteria. I gave you some examples. Would that fit the 
criteria?
    Ms. Johnson. Well, I don't want to get into hypotheticals. 
So, again, you would have to look at a variety of information 
and sources, again, look if it is, you know, true, credible, 
corroborated. And you look at it in its entirety.
    So I can't speculate, again, on alleged activities and be 
able to comment----
    Mr. Poe. Well, that information is disturbing. Would you 
not agree?
    Ms. Johnson. A lot of activities in North Korea----
    Mr. Poe. Mr. Kim?
    Mr. Kim. If I may, if true--and I think you are asking us 
to assume that that report is true, that allegation is true--
certainly, it would be a relevant factor for consideration in 
determining whether North Korea meets the criteria of having 
repeatedly supported acts of international terrorism.
    Mr. Poe. All right.
    And my understanding is that the policy of the 
administration in dealing with North Korea is strategic 
patience. Is that correct?
    Mr. Kim. Sir, no. I think the term ``strategic patience'' 
was used to describe an approach we were taking to any 
resumption of negotiations. And the idea was that we wanted to 
avoid the mistakes that had been made previously with attempts 
at negotiations with the North Koreans, so we wanted to be more 
cautious about resuming the negotiations, that we weren't going 
to rush back to negotiations, that we weren't going to offer 
any concessions to North Koreans in order to get them to the 
table.
    We wanted to coordinate very closely with our partners. We 
wanted to deliver to them--we wanted to make sure that we gave 
us the best chance possible to actually making some lasting 
concrete progress on the inquisition.
    It was not meant to describe our policy. I think our policy 
is what we both described, which is the combination of 
deterrence, pressure, sanctions, as well as diplomacy.
    Mr. Poe. All right. I am out of time.
    I will yield to the gentleman from Massachusetts, Mr. 
Keating, who talks faster than I do.
    Mr. Keating. We both have accents, just different ones.
    Again, thank you for being here.
    I just want to just dwell on one practical aspect of this. 
What practical effect would the designation of North Korea as a 
state sponsor of terrorism have? I mean, they are already 
heavily sanctioned. There are not many countries more isolated 
economically in the world than they are.
    So, if this occurred, hypothetically, what other added 
restrictions would be in place? And what would be the effect if 
it was symbolic? Would that have a practical and an important 
effect, too?
    Ms. Johnson. Well, again, if I may, so the SST designation 
leads to bans on arms-related exports and sales, controls over 
exports of dual-use items, restrictions on foreign assistance, 
and other miscellaneous financial and other restrictions.
    So when you look at North Korea currently, which is one of 
the heaviest sanctioned countries around, there is no real 
practical--I mean, practically speaking, it would not enhance 
or necessarily alter any of the current sanctions that are 
applicable to the DPRK at this time.
    Mr. Keating. Yeah. What do you think in terms of a symbol 
or message that that would make?
    Mr. Kim. I mean, I think there is obviously some symbolic 
value in designating them as a state sponsor of terrorism, but 
only if they actually meet the criteria for that designation.
    If I may, sir, I would just add, I mean, sort of, the flip 
side of your question is, did they gain anything when we 
delisted them? And I think the answer is the same. Because, as 
you pointed out, they are so heavily sanctioned already, both 
multilaterally and unilaterally, that they really did not gain 
anything from delisting other than whatever symbolic 
appreciation they might have had.
    Mr. Keating. Yeah. Just as a process, how does the 
Department factor in, in this instance North Korea but in any 
instance, participation in cyber attacks and cyber crime when 
determining whether it is a designated state sponsor of 
terrorism?
    Ms. Johnson. Yeah, and I think, cyber being new, you know, 
it is an important area.
    Mr. Keating. Yeah.
    Ms. Johnson. And so we would look at all of that 
information. And, again, cyber acts is something we would look 
at. And, again, we would look at the statute, its repeated 
acts, and, again, if it meets the criteria.
    So, again, looking at all intelligence related to a 
particular cyber attack, we would definitely take a look at it 
closely.
    Mr. Keating. Yeah.
    And, again, getting to the process, as a whole, of the 
designation, is it--you know, some of the bad acts they are 
doing and some of the actors they are involved with are actual 
state sponsors. Can you comment on how the fact that these are 
state actors, how that might affect the designation process?
    Ms. Johnson. Well, I mean, it is certainly alarming for us 
that the DPRK has close relationships with Iran and Syria, both 
state sponsors of terrorism. But, again, we go back to the 
legal criteria, and we look at it very closely, of course, 
because these are state sponsors of terrorism. And we, again, 
look for repeated acts and, again, verifying and corroborating 
and making sure credible information exists if there are 
linkages there, and, again, looking at the relevant criteria.
    Mr. Keating. Yeah.
    Now, I know that we are limited, and that is what is a 
little frustrating in a, you know, open setting. So, to the 
extent you can--you can follow through in a classified setting, 
of course--but touching on the support of Hezbollah and Hamas, 
what would that have as an impact in the designation to any 
country?
    Ms. Johnson. And, again, we would be very concerned with 
any relationships with foreign terrorist organizations and, 
again, would go back to look at, again, repeated acts. I mean, 
it sounds very process-oriented, but it is, to make sure that 
the standard remains the same. Again, are they doing repeated 
acts or support for acts of international terrorism, and then 
again looking at the intelligence to see if that backs it up to 
make----
    Mr. Keating. Yeah. Clearly, would you weigh--it would be 
much more influential than perhaps state acts, working with 
state actions of----
    Ms. Johnson. Yeah, the concern--I mean, very much a concern 
of state sponsors of terrorism, or STS.
    Mr. Keating. All right.
    Well, Mr. Chairman, I will yield back because we are 
limited in the terms of what we can ask in an open setting 
along the lines that I was going to pursue. So I yield back my 
time.
    Mr. Poe. I thank the gentleman from Massachusetts.
    The Chair will yield to the gentleman from California, 
Colonel Cook, for 5 minutes.
    Mr. Cook. Thank you, Mr. Chairman.
    I am not an attorney, so I don't understand a lot of the 
process you are talking about. And I thank my lucky stars.
    Ms. Johnson. I am not either, if that helps.
    Mr. Cook. But the answers you gave there about what you 
would have to do, I kind of get the feeling that it would take 
a nuclear event and then it might take 6 months to examine the 
radioactive material that would be available before you made a 
decision.
    And I am being somewhat caustic, maybe sarcastic, but it 
almost seems that you are very, very reluctant to establish 
what line they have to cross that they haven't already crossed. 
Because I thought they would have met this based upon their 
past behavior and the terrorist groups that they are associated 
with.
    Ms. Johnson. I appreciate the question.
    I would definitely say that we take this very seriously, 
and ``seriously'' means we look, again, at all of the relevant 
criteria and intelligence and information. And I don't think we 
want to put countries on the list willy-nilly, so we do a very 
close examination of all the evidence.
    Mr. Cook. Well, it is hard to think of another country that 
should be closer to the all-star list there, in terms of their 
behavior.
    All right. We will switch gears. I am one of those ones 
that I think they are just going to thumb their noses at us. 
But there is one country in the area there that can make a 
difference and will probably, and that is China. Do you agree 
with that, that if they were going to change their behavior in 
a lot of ways, that the fulcrum point is China?
    Mr. Kim. Sir, there is no question that China has a special 
relationship with North Korea, that they have significant 
leverage over North Korea. And we have urged China to exercise 
that leverage, use their leverage more effectively to persuade 
Pyongyang to start making some smart, positive decisions.
    Obviously, there is more that the Chinese can do. But I can 
assure you that they have made very clear publicly, including 
when Xi Jinping was here just a few weeks ago, that they remain 
committed to the shared goal of denuclearization and that they 
strongly oppose any actions by North Korea in violation of 
Security Council resolutions.
    We will continue to work with the Chinese to try to 
persuade them that they need to be doing more, they need to be 
doing more effectively, to persuade North Korea back to some 
credible negotiations, to persuade them to take some concrete 
actions toward denuclearization.
    Mr. Cook. So, officially, the word from China to us is they 
will not get involved. That is my understanding.
    Mr. Kim. Well, I don't think that is accurate, sir. I mean, 
I think----
    Mr. Cook. It is not? You just admitted, you said that they 
were the one country that probably has the most leverage over 
that. And they came here and everything, and if we ask them 
point-blank, the one country there to make a difference, so 
that they can perhaps save lives or cut down on this influence, 
and we don't want to go there? Or am I misunderstanding this?
    Mr. Kim. No, sir, I wasn't suggesting that the Chinese are 
not doing anything or that they are not working with us at all. 
What we have seen has not been completely satisfactory. And 
this is why we are continuing to remind the Chinese that North 
Korea's irresponsible behavior and repressive actions hurt 
China's own interests, and, therefore, Beijing needs to get 
more serious, more focused about persuading North Korea.
    Mr. Cook. But they haven't done it yet, and they won't do 
it. Is that correct?
    Mr. Kim. I think they are continuing to make an effort, 
but, obviously, less than satisfactory from our perspective.
    Mr. Cook. Effort means a communique to North Korea, ``Hey, 
knock off the following events. Do this. It is in the best 
interest of North Korea and China and everyone else to do it.'' 
Have they done anything? Obviously, I am being allegorical here 
to a certain extent.
    Mr. Kim. I mean, I can tell you that Chinese efforts and 
sanctions enforcement and implementation have improved over 
recent years. Is it perfect? No. But we have seen tighter 
border controls. We have seen stricter controls over export of 
dual-use items from China to North Korea. So we have seen some 
improvements, but we need to see more is what I am trying to 
say.
    Mr. Cook. Well, I am running out of time here. I don't 
agree with you. I don't agree that China has leaned on them at 
all. And I don't even think they have agreed to the United 
States that they are going to lean on them. And I think they 
are the country that probably has the most influence.
    And I yield back.
    Mr. Poe. I thank the gentleman from California.
    The Chair now recognizes the other gentleman from 
California, Mr. Sherman.
    Mr. Sherman. I think the previous gentleman from California 
had it right. China is subsidizing North Korea, and China will 
occasionally send us a statement that says they love us very 
much and they wish that North Korea wasn't acting so badly.
    When we threaten or impose taxes on Chinese exports to the 
United States, we will get their attention. Until then, we will 
get statements that I describe as love letters--they may even 
have little hearts directly from President Xi--saying that they 
love us very much and they share our goals.
    We may need to clarify the state-sponsor-of-terrorism 
statute because, Ms. Johnson, is there any doubt that--let's 
say Syria engages is planning terrorism, and they go to North 
Korea and say, ``Hey, you guys have a special explosive that 
will help us blow up more people.'' North Korea provides it to 
Syria. And Syria, not a nonstate actor, Syria itself commits 
the act of terrorism and kills extra people because they have 
the good explosives.
    Are you saying that, under the statue, it is unclear that 
that would get a country put on the state sponsor of terrorism 
list? After all, they didn't help a terrorist group; they 
didn't carry out an act of terrorism themselves. They just 
supplied special terrorist equipment to another state sponsor 
of terrorism.
    Ms. Johnson. Thank you for the question.
    I would say that, again, we look back to the statue, which 
says repeated acts, that they would provide support for 
repeated acts of international terrorism.
    Mr. Sherman. Okay. Let's say they did it four or five 
times, but all of their aid was to a state actor, not a 
nonstate actor.
    Ms. Johnson. So we would look at the intelligence and the 
available information to be able see----
    Mr. Sherman. Say it is perfect intelligence; five times, 
they provided things to Syria that Syria used for terrorism. 
They are building the barrel bombs.
    Ms. Johnson. Well, I don't want to get into hypotheticals, 
but I would say, again, we would look at all----
    Mr. Sherman. How can I possibly understand how you 
interpret this statute if we don't get into hypotheticals?
    I am asking you a simple question. Is support for a state 
sponsor of terrorism a reason to put a country on the state 
sponsor of terrorism list?
    Ms. Johnson. Again, we would look at----
    Mr. Sherman. ``We would look at''--can you give me an 
answer?
    Okay. Look, it is pretty obvious you are not following the 
statute.
    Mr. Kim, North Korea abducted Japanese citizens. Are some 
of them still imprisoned in North Korea, as far as you know?
    Mr. Kim. So we don't have that information. In fact----
    Mr. Sherman. Have they returned the bones, or have they 
returned the people? All of them. I know they have done on 
occasion.
    Mr. Kim. No.
    Mr. Sherman. No. Okay. So I would think that kidnapping 
Japanese citizens is an act of terrorism not only on the day 
you kidnap them but a month later when you are still holding 
them, 10 years later when you are still holding them, two 
decades later when you are still holding them.
    Ms. Johnson, I am going to try and understand this 6-month 
rule. A country is on the state sponsor of terrorism list, but 
they periodically issue statements saying they don't believe in 
terrorism. So they have met one of the two prongs. The other 
prong is they have to go 6 months without engaging in a 
terrorist act or at least us knowing about it.
    Let's say a country meets those two standards. The intel 
briefs you and says, ``It has been 6 months and a day since 
they have engaged in terrorism that we can document. And, oh, 
by the way, here is a copy of their most recent statement 
opposing terrorism.''
    Under those circumstances, are you saying you can take them 
off the terrorist list or you are required by law to take them 
off the terrorist list?
    Ms. Johnson. So there is nothing under the statute that 
talks about reviewing. The not-fully-cooperating country list, 
for instance, there is an annual review, and if you don't 
recertify, you are off the list.
    Mr. Sherman. Right. Okay.
    Ms. Johnson. So, for the statutes, that is not the case. If 
there is review called, we look back 6 months prior to the call 
for the review for any acts of international terrorism and for 
support or----
    Mr. Sherman. And let's say you look back 6 months and you 
don't see any. Do you then feel legally compelled to give 
somebody a get-out-of-jail-free card because it has been 6 
months and a day? Or is it just optional with the State 
Department?
    Ms. Johnson. Well, we provide the recommendation to the 
Secretary of State, and then that would go to the----
    Mr. Sherman. Are you required to recommend that a country 
be taken off the state sponsor of terrorism list if, as far as 
you know, they have gone 7 months without blowing anything up?
    Ms. Johnson. I belive the answer is yes. And I could get 
back to you on that. But yes.
    Mr. Sherman. Well, please get back to us. Although, as to 
North Korea, every day that those Japanese citizens are not 
returned is a continuing act of terrorism. Every day that the 
bodies of those who died in North Korea are not returned is a 
continuing act of terrorism.
    So, even if the law is as you describe it, the 
recommendation of your bureau to take North Korea off the state 
sponsor of terrorism list was certainly unjustified legally. 
And then, as far as a matter of politics or international 
foreign policy, hey, North Korea said it would disable its 
nuclear installation in Yongbyun, it did, then it didn't, and 
they are still off the list of--you know. I am not sure that 
the removal is justified, as a matter of foreign policy.
    I yield back.
    Mr. Poe. The Chair will have another round of questions 
from the Members of Congress. We will go 2 minutes this time 
instead of 5.
    The Chair will yield to Colonel Cook from California.
    Mr. Cook. Thank you, Mr. Chair.
    I want to switch gears a little bit. And I understand that 
the North Korean chamber of commerce and China has probably 
given them a five-star rating for being good guys, but don't we 
have the U.S. military that has Top Secret intelligence flying, 
you know, satellite data, U-2s, and everything else?
    And when you talk to the military and if you ask them that 
question, they would probably say diplomatically, ``Not in our 
area.'' But then they would tell you things and reasons why you 
couldn't sleep at night and why the threat is so great, and 
they would also talk about their affiliation with certain 
terrorist groups.
    Do you guys talk to the military and get that same take 
that we get, maybe not in Foreign Affairs but the House Armed 
Services Committee, where we get an analysis of a particular 
country? And all I have gotten is--boy, if North Korea doesn't 
qualify for that list, then no one does.
    Ms. Johnson. Well, we look to the entire intelligence 
community, and so----
    Mr. Cook. But my question, does the military come to you 
and do you have that exchange that we are having right now? Or 
is that something outside your realm?
    Ms. Johnson. No, we are consistently looking at the 
intelligence and the information. So if military is coming with 
information, yes, we would----
    Mr. Cook. But do you have meetings together where you would 
have a dialogue like this?
    Ms. Johnson. We talk to the military intelligence 
frequently on a number of countries. And, you know, we do have 
discussions with them regularly, yes.
    Mr. Kim. Sir, if I may, I think from our side, as well, we 
remain in very close touch with our military colleagues.
    And I served as U.S. Ambassador to Seoul until just 
recently, and I know from my own experience that the 
communication between us, the Embassy, and U.S. Forces Korea 
continues every day, and it is very much focused on the threat 
posed by North Korea.
    And the same thing in Washington. I stay in very close 
touch with my colleagues in the Pentagon, and we share 
information about threats posed by North Korea.
    Mr. Cook. Well, as somebody who was in the military a long 
while, I had a different take on it than you did. So, 
obviously, my 26 years in the Marine Corps was wasted, because 
I am very, very worried about North Korea.
    I yield back.
    Mr. Poe. The gentleman yields back.
    The Chair recognizes the gentleman from Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    I am going to try a thread of questioning that I started 
and that Mr. Sherman tried to start, and maybe this will yield 
an answer. Because we are interested in whether the process 
needs to be altered in any way.
    So, in the instance that we both led some questioning on, 
where it is a state actor that is involved and it is repeated 
sufficiently and it is credible, would you be precluded from 
the designation because it is a state actor?
    Ms. Johnson. If a country meets the criteria and we have 
the intelligence, again, to support that criteria, we would 
make a recommendation, yes.
    Mr. Keating. Okay. So you are not precluded by that.
    Ms. Johnson. But, again, yes, I mean, hypotheticals are 
hard to answer in----
    Mr. Keating. Oh, I am talking generally, not about North 
Korea, in this instance.
    Ms. Johnson. But, again, the criteria, I think, are--I 
mean, there is no definition of ``acts of international 
terrorism.'' So we have pulled from the statutes and 
legislative history and then used----
    Mr. Keating. Right. So the state-actor designation doesn't 
preclude----
    Ms. Johnson. So an SST, a foreign terrorist organization--
--
    Mr. Keating. Right.
    And just one other question, because we were talking about 
sanctions and other issues. And I know this, but I would be 
interested in Ambassador Kim's comments, you know, that might 
be more recent or relevant.
    They are among the most repressive countries in the world 
with its own citizens--terrible human rights abuse of its own 
citizens. How is our intelligence--to the extent that we can 
talk about this, is there dissent among the people? Is there 
significant feeling against a country that acts like this? Are 
there indications that that is increasing recently?
    Mr. Kim. Thank you.
    I think it is difficult to tell. You would think that there 
would be dissatisfaction, dissent among the North Korean 
public, but North Korea remains a unique place. In many bad 
ways, it is a unique place. The information flow is very 
limited. The regime remains one of the most brutal. So I think 
it is difficult for North Korean citizens to express dissent, 
dissatisfaction in any way that we would be able to detect.
    But, certainly, I mean, obviously, we monitor very closely 
developments on the ground. And we are not seeing any 
indication of any movement from the North Korean people.
    Mr. Keating. Okay.
    I yield back, Mr. Chairman.
    Mr. Poe. The Chair yields to the gentleman from California, 
Mr. Sherman.
    Mr. Sherman. Ms. Johnson, I have, well, a hard question, 
but it will be easy right now, and that is: I would like you to 
furnish for the record from your bureau an analysis of how you 
interpret the law. When are you required to list a state as a 
state sponsor of terrorism? When are you allowed to do it? When 
do you have to take them off the list, if ever? When are you 
allowed to take them off?
    And I will ask you to have a series of hypotheticals. If 
country A--you don't have to name any countries--takes the 
following action, then we are required to list them, we are 
allowed to list them, we are required to delist them, we are 
allowed to delist them.
    Because it is our job, when necessary, to rewrite statutes, 
and if we don't know how you are interpreting this statute, we 
don't know whether it needs to be rewritten or not. Now, in a 
perfect world, we would just quickly write a new statue that 
would be so clear we wouldn't have to ask you how you interpret 
it. I have learned that Congress is not a perfect world. And if 
you are interpreting the law in a certain way that seems to be 
correct, you will save us a lot of time in trying to improve 
it.
    Ambassador Kim, there is a tendency for us to say, ``Well, 
the guys are the bad guys, just do bad things and have no moral 
compass at all.'' It has been my experience that bad guys don't 
think they are the bad guys, and they have their own compass, 
as distorted--I mean, it may be pointing due south.
    And, in looking at North Korea, they seem to be very 
legalistic, and they seem to care whether we have a 
nonaggression pact with them--not that that would stop a single 
division from moving north. They seem to care about whether 
they are designated as a state sponsor of terrorism, when, in 
fact, if we took them off the list, that would not improve 
their economy in any way I can ascertain. And now they are 
pushing for a peace treaty. And even if we had a peace treaty 
with them, God knows they engage in activity that would justify 
unpeaceful activity in the future.
    How much do they care about these three things, and why? 
What is their internal thinking?
    Mr. Kim. Thank you very much, Congressman. I think that is 
a very important question.
    Frankly, I am skeptical about their call for a peace treaty 
because I think they understand that we have certain 
fundamental requirements. I mean, they would need to 
denuclearize; they would need to abandon their pursuit of 
dangerous delivery means, missile capabilities; and they would 
need to improve their human rights situation. I mean, I cannot 
imagine any circumstance in which we would enter into a peace 
treaty with North Korea that continues to reject international 
obligations and commitments.
    So they know that. So for them to be proposing peace treaty 
negotiations without addressing, sort of, the core issues that 
we care deeply about, frankly, it is disingenuous. So it is 
hard for me to, you know, sort of, decipher why Kim Jong-un is 
so focused on this.
    But I agree with you completely that they tend to be very 
legalistic. And this is, I think, one of the lessons we learned 
from our previous efforts in negotiating with the North 
Koreans, is that we really have to be very careful in drafting 
these documents and entering into any side agreements, because 
they are very much focused on the most minute details and 
looking for loopholes wherever possible.
    Mr. Sherman. Thank you.
    Mr. Poe. Just a couple more questions. I think we are 
voting now or soon. Thanks again for both of you being here.
    There was a report back in the 2000s, early 2000s, that 
North Korea set up a nuclear reactor in Syria and then provided 
nuclear materials to Libya.
    Assume that is true. Would that fit the criteria of 
abetting the proliferation of weapons of mass destruction, 
which is one of the issues to determine whether somebody should 
be on the foreign terrorist organization/state sponsor of 
terrorism list?
    Is that right, Ms. Johnson, or not?
    Ms. Johnson. The FTO list and statutes are different than--
--
    Mr. Poe. I know. I meant state sponsor of terrorism. I am 
not trying to make North Korea a foreign terrorist 
organization. State sponsor of terrorism is the key here. Would 
that be a criteria for putting them on the list?
    Ms. Johnson. Again, I think we look at everything very 
closely. I know----
    Mr. Poe. But would it be one of the things that you would 
look at, this fact?
    Ms. Johnson. We would look at it very closely and make sure 
that it is repeated acts for support for international 
terrorism and, again, evaluate the criteria and look at it 
holistically and as an entirety. Because, again, I think it is 
very hard to do hypotheticals without looking at----
    Mr. Poe. Okay. How about cyber attacks? That was mentioned, 
but I am not sure I understood the answer. Would that be a new 
criteria now that you could consider to put a country on the 
state sponsor of terrorism list?
    Ms. Johnson. Again, we would review cyber attacks just as 
closely as any of the other acts. And, again, for cyber 
attacks, you know, you could look at them in a variety of 
different ways depending on what we are talking about as far 
as----
    Mr. Poe. Yeah. Some of us look at them as an act of war.
    Ms. Johnson. So, again, we would look at it against the 
relevant criterial and, again, in its entirety.
    Mr. Poe. And there are----
    Ms. Johnson. But repeated acts is an important element.
    Mr. Poe. Ambassador, I understand there are three countries 
that are state sponsors of terrorism: Iran, Syria, and Sudan. 
Is that correct?
    Ms. Johnson. Yes.
    Mr. Poe. Is there anybody else that we don't know about?
    Ms. Johnson. No.
    Mr. Poe. I mean, that I don't know about.
    Kim Jong-un had a press conference, apparently, some time 
ago. Maybe it was last year. During the press conference, he 
had behind him a chart or a hit list of things he wanted to 
destroy. It is kind of personal to me that his first target on 
that list, with his ICBM capability that he wants, was Austin, 
Texas. I take that a little personal.
    Ms. Johnson. Why Austin? Yeah.
    Mr. Poe. And that was my question. Why Austin, Texas?
    But, bigger than that, it seems to me that the government 
is doing everything it can to be a bad actor in the world. They 
are helping all the bad guys. They want to be a bad guy. They 
want nuclear weapons. They want to help sponsor terrorism, 
Hezbollah, Hamas.
    And when I was with the Pacific Command not too long ago, 
the admiral, I asked him the question: Of the five countries 
that are threats, or the five entities--China, North Korea, 
Iran, ISIS, Russia--which one are you the most nervous about? 
He told me North Korea he was the most concerned about because 
you never know what they are going to do.
    So, anyway, I want to thank both of you for being here. We 
will have a classified hearing at some later time where we will 
have more members, and we will have that hearing. Thank you 
both.
    We are voting now, and we are adjourned. Court is over.
    [Whereupon, at 3:04 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ---------- 
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                          
                              
                             
                       
  
  
[Note: The document submitted for the record by the Honorable Ted Poe, 
a Representative in Congress from the State of Texas, and chairman, 
Subcommittee on Terrorism, Nonproliferation, and Trade, entitled, 
``United States District Court for the District of Columbia: Civil 
Action No. 10-483 (RCL) and Civil Action No. 09-646 (RCL),'' 
demonstrating a court ruling in 2014 that North Korea materially 
supported Hezbollah's terrorist attacks in Israel in 2006, is not 
reprinted here but may be found on the Internet at: http://
docs.house.gov/meetings/FA/FA18/20151022/104081/HHRG-114-FA18-20151022-
SD001.pdf]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                       [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
